PLATINUM
PREMIER RATE
MASTERCARD®

AGREEMENT
BILLING RIGHTS
&
CREDIT CARD
DISCLOSURE

IMPORTANT
KEEP THIS NOTICE
FOR FUTURE USE
MC029 R 04/2021

Interest Rates and Interest Charges

Mastercard®
Credit Cards
Annual
Percentage
Rate (APR)
for Purchases

Platinum Premier Rate

7.70% to 17.90%

when you open your account,
based on your creditworthiness
and other factors. After
that, this APR will vary with
the market based on the
Prime Rate.

APR for
Balance
Transfers

0% Introductory APR for Balance
Transfers made during the first
90 days from the date of account
opening. Introductory APR
does not apply to purchases.
Promotional balances will
remain at 0% APR for 12
months starting from the date
of the initial Balance Transfer
request. Beginning with the
thirteenth month, your APR
will be 7.70% to 17.90% based
on your creditworthiness and
other factors. This APR will vary
with the market based on the
Prime Rate.

APR for Cash
Advances

0% Introductory APR for
Cash Advances made during the
first 90 days from the date of
account opening. Introductory
APR does not apply to
purchases. Promotional
balances will remain at 0% APR
for 12 months starting from the
date of the initial Cash Advance
request. Beginning with the
thirteenth month, your APR
will be 7.70% to 17.90% based
on your creditworthiness and
other factors. This APR will vary
with the market based on the
Prime Rate.

Penalty APR
and When it
Applies
Minimum
Interest
Charge

None

None

Your due date is at least 25 days
after the close of each billing
cycle. We will not charge you any
interest on purchases if you pay
your ENTIRE balance, including
Balance Transfers and Cash
How to Avoid
Paying Interest Advances, by the due date each
month. If the ENTIRE balance is
on Purchases
not paid, then interest will be
charged on any purchases, but
not on the Balance Transfers
and/or Cash Advances made
during the first 90 days of the
account opening.
For Credit Card
Tips from the
Consumer
Financial
Protection
Bureau

To learn more about factors
to consider when applying for
or using a credit card, visit
the website of the Consumer
Financial Protection Bureau at:
http://www.consumerfinance.
gov/learnmore.
Fees

Annual Fee

None

Transaction Fees
• Balance Transfer

None

• Cash Advance
• Foreign Transaction

Up to 2% of the amount
of each Cash Advance
None

Penalty Fees
• Late Payment
• Over the Credit Limit
• Returned Payment

Up to $25
None
Up to $24

How We Will Calculate Your Balance:
We use a method called “average daily balance” (including
new purchases). See the terms and conditions of this
credit card agreement for more details.
The information about the cost of the cards described
in this application is accurate as of 04/2021. This
information may have changed after that date. To find
out what may have changed, call us at 1-800-580‑3300
or write to us at Randolph-Brooks Federal Credit Union
(RBFCU), P.O. Box 2097, Universal City, TX 78148.

DEFINITIONS: “Agreement” means this RBFCU Platinum Premier Rate Mastercard®
Agreement. “You,” “Your,” and “Cardholder” mean any person who signs the
Application or uses the card. “Card” and “Account” mean the RBFCU Platinum
Premier Rate Mastercard which we issue under this Agreement and includes any
device or check used to obtain credit or cash from the credit card account. The
terms “our,” “we,” “us,” or “Credit Union” refers to RBFCU or any of its assignees.
“Use of the card” means any procedure used by you, or someone authorized by
you, to make a purchase or obtain a Cash Advance whether or not the purchase
or advance is evidenced by a signed document. “ATM” means automated teller
machine. “Unauthorized use of the Card” means the use of the card by someone
other than you, who does not have actual, implied, or apparent authority for such
use, and from which you receive no benefit.
1. AGREEMENT: This Agreement governs the use of your credit card account with
us and you agree to be bound by the terms of the Agreement. If your Account
is a joint Account, all of you will be jointly and individually responsible for all
amounts due under this Agreement. If your application is approved, the Credit
Union may, at its discretion, establish a credit card account in your name and
cause one or more Cards to be issued to you or those designated by you. In
such event, you authorize the Credit Union to pay for your Account, all items
reflecting credit purchases and Cash Advances obtained through the use of the
Card. You agree to immediately sign the back of the Card upon receipt in order
to ensure proper use. You may purchase goods and services by using your Card at
any retail business establishment authorized to honor the Card. You may obtain
Cash Advances through the use of your Card at a financial institution authorized
to make such Cash Advances. All retail purchases and Cash Advances are made
at the option of the merchant or cash-advancing institution. The Credit Union
is not responsible for refusal by any merchant or cash-advancing institution to
honor your Card. Any refund, adjustment, or credit allowed by a merchant will
be by a credit notice to the issuer of your Card and will be shown as a credit on
your periodic statement.
2. CREDIT LIMITS: You promise the purchases made or Cash Advances received on
your Card will not exceed the credit limit disclosed to you at the time you receive
your Card or the credit limit adjusted by the Credit Union.
3. PROMISE TO PAY: You promise to repay the Credit Union for all payments made
for your Account together with an INTEREST CHARGE on the unpaid balance. At
the end of each billing cycle, you will be furnished with a periodic statement
showing (i) the “previous balance” (the outstanding balance in the Account
at the beginning of the billing cycle), (ii) the Amount of all Cash Advances,
purchases, and INTEREST CHARGES posted to your Account during the billing
cycle, (iii) the amount of all payments and credits posted to your Account
during the billing cycle, and (iv) the “new balance” which is the sum of (i) and
(ii) less (iii). You agree to pay on or before the “payment due date” shown on
the periodic statement either the entire “new balance” or a minimum payment
equal to 2% of the new balance or $25, whichever is greater. You also agree to
pay on or before the “payment due date” as shown on the periodic statement
any amount in excess of the credit limit established by us and any past due
minimum payments.
4. COST OF CREDIT: You agree to pay an INTEREST CHARGE on your Account. This
section discloses the circumstances under which an INTEREST CHARGE will be
imposed and explains how the INTEREST CHARGE is determined:
a. When INTEREST CHARGES begin to Accrue. The INTEREST CHARGE begins to
accrue for retail purchases on the date each transaction posts to your Account.
An INTEREST CHARGE begins to accrue for Balance Transfers and Cash Advances,
including convenience checks, on the date of the Balance Transfer, Cash
Advance or the first date of the billing cycle, in which the Cash Advance is
posted, whichever is later. If you pay the entire previous balance in full within
25 days after the previous statement date, no INTEREST CHARGE will be imposed
except for Balance Transfers and Cash Advances, including convenience checks.
b. Balance Subject to INTEREST CHARGE. We figure the INTEREST CHARGE on your
Account by applying the periodic rate to the “average daily balance” of your
Account (including current transactions). To get the “average daily balance,” we
take the beginning balance of your Account each day, add any new purchases,
Cash Advances, and fees and subtract any payments or credits and exclude any
unpaid INTEREST CHARGES. This gives us the daily balance. Then, we add up all
the daily balances for the billing cycle and divide the total by the number of
days in the billing cycle. This gives us the “average daily balance.”
c. Rate of INTEREST CHARGE. You will pay an INTEREST CHARGE for all charges
and advances made against your Platinum Premier Rate Mastercard account.
You may pay any amount outstanding at any time without penalty for early
payments. Your actual ANNUAL PERCENTAGE RATE (APR) will be determined

based on your creditworthiness and other factors and will be provided to you
in writing if your application is approved. The APR is based on the U.S. Prime
Rate (“Prime Rate”), and the APR will equal the Prime Rate plus an additional
amount. If the Prime Rate increases, it will cause the APR to increase. If the
Prime Rate decreases, it will cause the APR to decrease. The APR is subject to
change quarterly. We use the Prime Rate published in The Wall Street Journal
seven (7) days prior to the end of the quarter. If the Prime Rate causes an APR
to change, we put the new APR into effect as of the first day of the next billing
period after the start of the January, April, July or October billing cycle for
which we calculate the APR. We apply the new APR to any existing balances,
subject to any promotional rate that may apply. If The Wall Street Journal
does not publish the Prime Rate, we will use a similar published rate. If your
APR is 7.70% (Prime + 4.45%), you will accrue an INTEREST CHARGE at a rate
of 0.6417% per month. If your APR is 9.70% (Prime + 6.45%), you will accrue
an INTEREST CHARGE at a rate of 0.8083% per month. If your APR is 13.90%
(Prime + 10.65%), you will accrue an INTEREST CHARGE at a rate of 1.1583% per
month per month. If your APR is 17.90% (Prime + 14.65%), you will accrue an
INTEREST CHARGE at a rate of 1.4917% per month. However, regardless of the
index value, the Annual Percentage Rate is currently capped by regulation at
18.00% (which corresponds to a monthly periodic rate of 1.5000%). RBFCU
reserves the right to increase the maximum interest rate if permitted by law
or regulation.
5. OTHER CHARGES: Late Fee: If you do not pay your minimum payment within 15
days following your payment due date, you may be charged a late fee of up to
$25. Returned Payment Fee: We will add a fee to your balance of up to $24 when
a payment check or similar instrument is not honored, when we must return it
because it cannot be processed, or when an automatic debit is returned unpaid.
At our option, we will assess this fee the first time your check or payment is
not honored, even if it is honored upon resubmission. Cash Advance Fee: A fee
equivalent to 2% of the amount of each Cash Advance will be assessed. This will
be charged separately from the amount of your Cash Advance request.
6. LIABILITY FOR UNAUTHORIZED USE: You may be liable for the unauthorized
use of your Card. If you notice the loss or theft of your Card or a possible
unauthorized use of your Card, you should call our designee immediately at:
(866) 839-3485. You may also write to our designee at: Customer Service, P.O.
Box 30495, Tampa, FL 33630.
Although you may write to notify our designee of unauthorized use, calling our
designee immediately at the telephone number above is the best way to keep your
possible losses down.
Under Mastercard’s zero liability policy, you will not be liable for unauthorized use
of your Mastercard once you notify our designee orally or in writing of the loss,
theft, or possible unauthorized use and you meet the following conditions: (i) you
have exercised reasonable care in safeguarding your Mastercard from risk or loss
or theft, and (ii) you have, upon becoming aware of the loss or theft, promptly
reported the loss or theft to our designee.
You will not be liable for any unauthorized use that occurs after you notify our
designee. You may, however, be liable for unauthorized use that occurs before your
notice to our designee. In any case, your liability will not exceed $50. The foregoing
liability limitations do not apply to (i) Card use from which any Cardholder receives a
benefit; or (ii) use of the Card by a person with actual, implied or apparent authority.
7. CREDITING OF PAYMENTS: We will accept payments at the address indicated
on the Platinum Premier Rate Rewards Mastercard periodic statement. All
payments will be credited by other means, in most cases as of the day of receipt.
If payment is made by any other means such as RBFCU Online Banking or at an
RBFCU branch, credit for such payment may be delayed up to seven (7) days. You
understand and agree that payments will be applied in the following order: (i)
To the late charge and fees, (ii) to INTEREST CHARGES, (iii) to Cash Advances,
and (iv) to purchases. All payments made by you must be in U.S. dollars.
8. INTERNATIONAL TRANSACTIONS: If you effect an international transaction with
your Mastercard, Mastercard Worldwide will convert the charge into a U.S. dollar
amount. Mastercard Worldwide will use its currency conversion procedure,
which is disclosed to institutions that issue Mastercard cards. Currently, the
currency conversion rate used by Mastercard Worldwide to determine the
transaction amount in U.S. dollars for such transactions is generally either a
government‑mandated exchange rate or a wholesale exchange rate selected by
Mastercard Worldwide for the applicable currency on the day the transaction is
processed, which may differ from the applicable rate on the date the transaction
occurred or when the transaction is posted to your Account. RBFCU does not
charge any fees for foreign currency transactions.

9. DEFAULT: You understand you will be in default (i) if you fail to make any payment
on time; (ii) if you fail to notify the Credit Union in writing of any change of
employers; (iii) if you become the subject of an order of relief under the U.S.
bankruptcy laws; (iv) if you are the subject of any legal process which seeks to
attach your Credit Union account; (v) if you have given the Credit Union false or
inaccurate information in obtaining the credit card; (vi) if anything happens which
the Credit Union believes endangers your ability to repay what you owe, including,
but not limited to, leaving your current employment; (vii) if you fail to report the
Card lost or not in your possession; (viii) if you break any promise you made under
this or any other agreement with the Credit Union.
10. NON-WAIVER: We can accept late payments or partial payments or checks or
money orders marked “payment in full” without losing our rights under this
Agreement. We can also delay enforcing any of our rights under this Agreement
without losing them. Our failure to take action following any event of default shall
not constitute a waiver of our right to take action in the event of a future default.
11. ACCELERATION: In the event that you are in default, we may declare any amounts
you still owe immediately due and payable plus INTEREST CHARGES which will
continue to accrue until the entire amount you owe is paid. You expressly waive
presentment, demand, notice of intention to accelerate, and notice of acceleration
of the maturity of any amounts owing under this Agreement. The Card remains the
property of the Credit Union at all times and you agree to immediately surrender
the Card upon demand. You agree that, once you are informed by the Credit Union
or its designee that your Account is in default, you will not attempt to make further
Cash Advances or purchases on the Card. You agree to pay all reasonable costs of
collection, including court costs and attorney’s fees, and any costs incurred in the
recovery of the Card.
12. AUTHORIZED USERS: An authorized user is an individual who has charging
privileges on a Credit Card Account even though he or she is not the primary
Cardholder. The primary Cardholder is solely responsible for the Account. The
primary Cardholder must notify the authorized user that the Account will be
reported to a credit bureau and thus will show up on their credit report, which
can impact them positively or negatively, depending on how the Account is
handled. You agree to pay for all purchases and Cash Advances made by anyone
whom you authorize to use a Card issued on your Credit Card Account. If at any
time the primary Cardholder wants to terminate that person’s privilege as an
authorized user, the primary Cardholder must contact us. At that time, since credit
Cardholders share the same Card number, all Cards associated with the Account
will be blocked to prevent future unauthorized usage. Any remaining active
Cardholders will receive new Cards with a new number. The primary Cardholder
agrees to notify all associated parties.
Information About Authorized Users: By providing us certain personal
information about each authorized user, you confirm each authorized user has
allowed you to give us personal information. This may include, but is not limited
to, name, address, Social Security number, date of birth and citizenship status.
13. NOTIFICATION ADDRESS FOR INFORMATION REPORTED TO CONSUMER
REPORTING AGENCIES: Periodically, we may report the status and payment
history of your Account to credit reporting agencies. If you believe that the
information we have reported is inaccurate or incomplete, please notify us
in writing at: RBFCU, Attn: Credit Disputes, P.O. Box 2097, Universal City, TX
78148. Please include your name, address, telephone numbers, account
number and description of your problem.
14. CREDIT INVESTIGATION: In conjunction with your application for credit and,
if approved, maintenance of your Account, you agree that we have the right to
investigate your credit and employment history, to verify your credit references,
to request and use credit reports, and to report the way you pay your Account to
credit bureaus and other interested parties.
15. ADDITIONAL PROVISIONS: Each provision of this Agreement must be considered as
part of the total Agreement and cannot, in any way, be severed from it. However, you
also agree that should any part of the Agreement be found invalid, it will in no way
affect the remainder of the Agreement. You understand the validity, construction, and
enforcement of this Agreement shall be governed by the laws of the State of Texas.
The Credit Union does not warrant any merchandise or services purchased by you with
the Card. Notwithstanding any other provisions contained in this Agreement, we do
not intend to charge, and you shall not be required to pay, any amount of INTEREST
CHARGES or other fee or charge that is in excess of the maximum permitted by
applicable law. Any payments in excess of the maximum shall be refunded to you or
credited against your principal balance at our option.

16. TERMINATION OR CHANGES: The Credit Union can, with or without written
notice, terminate this Agreement at any time. You may terminate this Agreement
by written notice, as to future advances at any time. Termination by either party
shall not affect your obligation to repay any payments made for your account
resulting from use of the Card as well as INTEREST CHARGES and other related
charges. The Credit Union has the right to add to, delete, or change the terms
of this Agreement, including the periodic rate. If you use your Card to make a
purchase or obtain a Cash Advance after having been given notice of a change
in terms, you agree that the existing balance in your Account at the time of that
use will be subject to the new terms, as shall subsequent uses. You expressly
agree that, at our option, we may decline to renew your Account beyond the
expiration date shown on the face of your Card without notice.
17. LIEN AND SECURITY INTEREST: If you have other loans with the Credit Union,
now or in the future, (except for loans secured by any dwelling), collateral
securing those loans may also secure your obligations under this Agreement.
Please read any security agreement you sign in order to determine if the
collateral also secures your obligations under this Agreement and other
agreements you have with us.

Additionally, you specifically grant the Credit Union a
lien and consensual security interest in all individual
and joint accounts, present and future shares and
deposits held in any deposit accounts you have with
us now and in the future to secure repayment of credit
extensions made under this agreement. The granting of
this security interest is a condition for the issuance of
any card, which you may use, directly or indirectly, to
obtain extensions of credit under this agreement. This
does not apply to shares in an Individual Retirement
Account or Simplified Employee Plan qualifying as
such under the Internal Revenue Code. You authorize
the Credit Union to take money from any non-exempt
deposit account and apply it to what you owe, if you are
in default.
18. ILLEGAL CARD USE: You may not use your Card for any illegal transaction.
You agree that we may decline to process any transaction which we believe
in good faith to be for an illegal purpose. You agree that we will not be
liable for declining to process any such transaction. If we do process any
transaction which ultimately is determined to have been for an illegal
purpose, you agree that you will remain liable to us under this Agreement
for any such transaction notwithstanding its illegal nature. You agree
that any illegal use of the Card will be deemed an act of default under
this Agreement. You further agree to waive any right to take legal action
against us for your illegal use of the Card and to indemnify and hold us and
Mastercard Worldwide harmless from and against any lawsuits, other legal
action, or liability that results directly or indirectly from such illegal use.
19. AGREEMENT AND ACKNOWLEDGMENT: You acknowledge and agree that
the use of the Card by you or anyone authorized by you shall constitute
your acknowledgment that you have received and read this Agreement and
that you agree to the terms and conditions and promise to perform all the
obligations, requirements, and duties contained in this Agreement. Use of
this Card by you or anyone you authorize will also constitute consent to
the pledge of shares or deposits as described above.
20. CARDHOLDER RESPONSIBILITY: It is the responsibility of the Cardholder
to update Card information with any third-party or automatic bill-payment
service upon receiving a reissued or replacement card. The Credit Union
does not update or provide Card information to any third-party or billpayment service that the Cardholder may have previously authorized.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to our designee at: Customer
Service, P.O. Box 30495, Tampa, FL 33630.
In your letter, give the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is incorrect and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least three (3) business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is incorrect.
You must notify us of any potential errors in writing. You may call us, but if you do,
we are not required to investigate any potential errors and you may have to pay the
amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
1 If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
2 If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is incorrect, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with Cash Advances from an ATM or with a check that accesses your credit
card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact our designee in writing at: Customer Service, P.O. Box
30495, Tampa, FL 33630.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

